               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Pension and Retiree Health Care
               Funding Levels

         Management Advisory Report




                                              June 18, 2012

Report Number FT-MA-12-002
                                                                          June 18, 2012

                                                    Pension and Retiree Health Care
                                                                    Funding Levels

                                                         Report Number FT-MA-12-002



IMPACT ON
The U.S. Postal Service’s compliance         and would be enough to cover the
with the Postal Accountability and           remaining unfunded obligation of
Enhancement Act of 2006 for prefunding       $46 billion. Recognition of these assets
retiree health care benefits.                that could be applied to the liability, if
                                             ever needed, could prevent the
WHY THE OIG DID THE AUDIT:                   prefunding payments from increasing
Our objective was to explore the             Postal Service debt.
progress on funding pension and retiree
health care benefits as of                   WHAT THE OIG RECOMMENDED:
September 30, 2011.                          We recommended that management
                                             pursue legislative action to refund
WHAT THE OIG FOUND:                          current and future pension surpluses to
The Postal Service has funded its            the Postal Service.
pension benefit obligations at nearly
105 percent and is currently overfunded      WHAT MANAGEMENT SAID:
by $13.1 billion. The law does not allow     Although management did not agree or
the Office of Personnel Management to        disagree with the monetary impact, they
alter the contribution formula for the       agreed with the recommendation and
Postal Service, nor can it refund current    will continue their support of pending
or future surpluses. Although the Postal     legislation that would address the
Service continues to implement changes       Federal Employees Retirement System
to align costs with revenue, action is       surplus. They will also evaluate all
needed now to use the current and            pension assets and liabilities prior to the
future surpluses to remain a viable          start of the new session of Congress in
business.                                    January 2013, and will pursue
                                             legislation as appropriate.
Further, the Postal Service is required to
fully fund its future retiree health care    AUDITORS’ COMMENT(S):
benefit obligations. Currently, the          The OIG considers management’s
Postal Service has funded nearly             comments responsive to the
50 percent of that obligation. As an         recommendation and corrective actions
alternative to the annual prefunding         should resolve the issues identified in
payments, which has been difficult, we       the report.
estimate the Postal Service’s fair market
value of real property totals $85 billion    Link to review the entire report
June 18, 2012

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                            EXECUTIVE VICE PRESIDENT

                           MARIE THERESE DOMINGUEZ
                           VICE PRESIDENT, GOVERNMENT RELATIONS AND
                            PUBLIC POLICY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Management Advisory Report – Pension and Retiree Health
                           Care Funding Levels
                           (Report Number FT-MA-12-002)

This report presents the results of our review of the pension and retiree health care
funding levels for the fiscal year ended September 30, 2011 (Project Number
12BS001FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Stephen J. Masse
    Timothy F. O’Reilly
    Sheila T. Meyers
    Corporate Audit and Response Management
Pension and Retiree Health Care Funding Levels                                                                     FT-MA-12-002



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Funding Level Updates ................................................................................................... 2

Use of Overfunded Amount ............................................................................................. 4

Value of Extensive Real Property Holdings ..................................................................... 6

Other Related Matters ..................................................................................................... 6

Recommendation ............................................................................................................ 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 13

Appendix C: Management’s Comments ........................................................................ 14
Pension and Retiree Health Care Funding Levels                                                       FT-MA-12-002




Introduction

This self-initiated report presents the results of our review of pension and retiree health
care funding levels for the fiscal year (FY) ended September 30, 2011 (Project Number
12BS001FT000). We performed this review to explore the progress on funding pension
and retiree health care benefits. This report addresses financial risk. See Appendix A for
additional information about this review.

In the past 3 fiscal years, the U.S. Postal Service has sustained losses of more than
$17 billion. It is more critical than ever to reverse this trend. One of the greatest
opportunities for cost savings has been the overfunded pension plan,1 including the Civil
Service Retirement System (CSRS) and the Federal Employees Retirement System
(FERS), and the prefunding of retiree health care benefits.2 The U.S. Postal Service
Office of Inspector General (OIG) has issued seven reports exploring these complex
issues and identifying opportunities for better use of these funds. See Prior Audit
Coverage for additional information. This report updates prior work which described
Postal Service funding levels for pension and retiree health care benefits.

Conclusion

The Postal Service has funded its pension benefit obligations at nearly 105 percent and
is currently overfunded by $13.1 billion. The law does not allow the Office of Personnel
Management (OPM) to alter the contribution formula for the Postal Service, nor can it
refund current or future surpluses. Although the Postal Service continues to implement
changes to align costs with income, action is needed now to use the current and future
surpluses to remain a viable business.

Further, the Postal Service is required to fully fund its future retiree health care benefit
obligations. Currently, the Postal Service has funded nearly 50 percent of that obligation
($44.1 billion of the $90.3 billion future obligation). As an alternative to the annual
prefunding payments, which has been difficult, we estimate the Postal Service’s fair
market value of real property to be $85 billion, which would be sufficient to cover the
remaining unfunded obligation of $46 billion. Recognition of these assets that could be
applied to the liability, if ever needed, could prevent the prefunding payments from
increasing Postal Service debt.




1
 The Postal Service pays pension contributions into the Civil Service Retirement and Disability Fund (CSRDF).
2
 The Postal Service pays retiree health care contributions into the Postal Service Retiree Health Benefit Fund
(PSRHBF).


                                                         1
Pension and Retiree Health Care Funding Levels                                                              FT-MA-12-002



Funding Level Updates

The OPM has projected a $13.1 billion surplus in the Postal Service’s pension plan, as
of September 30, 2011,3 resulting in a 105 percent4 funded pension plan. Figure 1
provides funding details for the $13.1 billion surplus.

                                Figure 1. Pension Funding Status
               Present Value Analysis of Retirement Programs
               as calculated by OPM (9/30/10 latest actual data available)
               (Dollars in billions)

                                                                       Projected
               CSRS                                                       2011         2010        2009

               Actuarial Accrued Liability 9/30                   $      193.3     $ 193.0     $ 202.6
               Current Fund Balance                                      195.0         194.6       195.3
               (Unfunded)/Surplus                                 $        1.7     $     1.6   $    (7.3)

                                                                       Projected
               FERS                                                       2011         2010        2009

               Actuarial Accrued Liability 9/30                   $       75.9     $    69.9   $    68.3
               Current Fund Balance                                       87.3          80.8        75.2
               Surplus                                            $       11.4     $    10.9   $     6.9
               * assumes full payment of all USPS FERS contributions
                                                                       Projected
               TOTAL CSRS and FERS                                        2011         2010        2009
               Actuarial Accrued Liability 9/30                   $      269.2     $ 262.9     $ 270.9
               Current Fund Balance                                      282.3         275.4       270.5
               (Unfunded)/Surplus                       $     13.1      $ 12.5         $            (0.4)
                Source: Postal Service’s 2011 Form 10-K Report, dated November 16, 2011.

By comparison, the federal government 5 is 42 percent funded and the military6 is
27 percent funded, as of September 30, 2011. According to the OPM, the liability is a
projection for current and future benefit obligations and considers contributions paid into
and disbursements from the CSRDF. Overall, the liability is based on estimated
3
  CSRS is overfunded by $1.7 billion and FERS is overfunded by $11.4 billion.
4
  Separately, CSRS is 101 percent funded and FERS is 115 percent funded.
5
  Federal government pension contributions are also paid into the CSRDF. Combined with Postal Service
contributions, the CSRDF is 53 percent funded.
6
  Military pension contributions are paid into the Military Retirement Fund, a separate fund from the CSRDF.




                                                                  2
Pension and Retiree Health Care Funding Levels                                                        FT-MA-12-002




demographics for the entire federal government, including the Postal Service. However,
the Postal Service’s benefits paid represent actual demographic behavior, such as early
career turnover and not the aggregate for the federal government, resulting in a surplus
status for the Postal Service and an unfunded status for the federal government. Based
on this data, the Postal Service’s overfunding issue is even larger than we previously
reported.

In addition, compared to the Postal Service, only 6 percent of Fortune 1000 companies
have pension plans that are 100 percent or more funded.7 The average Fortune 1000
company’s pension plan is funded at 80 percent. 8 State government pension plans9 are
not as robust as the private sector, with only 1 percent of the pension plans being fully
funded. State governments have an average funding level of 66 percent.10 Figure 2
shows the pension funding levels from 2009 through 2011 for various entities.

                                  Figure 2. Pension Funding Levels




Sources: Postal Service’s Form 10-K Reports, federal government financial statements, and benchmarked research
for public and private sectors.

The Postal Service is currently funded at 49 percent for retiree health care benefits, as
of September 30, 2011, and is obligated to prepay $33.9 billion through 2016.11

7
  Survey of 615 companies.
8
  The Fortune 1000 average funding level ranged from 71 to 95 percent between 2001 and 2010.
9
  Survey of 99 state pension plans (some states had more than one pension plan).
10
   The state government average funding level ranged from 62 to 95 percent from 2001 through 2010.
11
   The Postal Service is obligated to pay $11.1 billion in FY 2012 and an average of $5.7 billion between 2013 and
2016.




                                                          3
Pension and Retiree Health Care Funding Levels                                                          FT-MA-12-002



Comparatively, the federal government does not prefund its retiree health care benefits,
the military12 is funded at 35 percent, and state governments were funded at 30 percent
in FY 2009. Only 38 percent of Fortune 1000 companies that offer retiree health care
benefits prefund the expense, at a median funding level of 37 percent.13 Figure 3 shows
retiree health care benefit funding levels from 2009 through 2011 for various entities.

                     Figure 3. Retiree Health Care Benefit Funding Levels




Sources: Postal Service’s Form 10-K Reports, federal government financial statements, and benchmarked research
for public and private sectors.

Use of Overfunded Amount

The Postal Service has an opportunity to use its projected current and future surpluses
to address its current financial crisis, while maintaining a 100 percent funding level for
its pension obligations. Additionally, current PSRHBF assets would continue to grow
with interest. The PSRHBF would still maintain a funding level that exceeds public and
private industry standards.

As of September 30, 2011, the PSRHBF had assets totaling $44 billion with unfunded
obligations of $46 billion, totaling $90 billion in future obligations. Figure 4 details the
funded and unfunded future retiree health care obligations.

12
   Military retiree health care contributions are paid into the Medicare-Eligible Retiree Health Care Fund, separate
from the PSRHBF. The fund pays the liabilities under the Department of Defense retiree health care programs for
military retirees and their dependents and survivors who are Medicare-Eligible.
13
   Eighty-seven percent of Fortune 1000 companies provide retiree health care benefits; however, only 38 percent
prefund the expense. The median funding level ranged from 23 to 37 percent between 2001 and 2010.




                                                           4
Pension and Retiree Health Care Funding Levels                                                            FT-MA-12-002



                          Figure 4. Retiree Health Benefit Funding Status
              Postal Service Retiree Health Benefit Fund Funded Status and
              Components of Net Periodic Costs as calculated by OPM *
              (Dollars in millions)                               2011                            2010

                Beginning Actuarial Liability at October 1             $      91,059      $     87,472

              - Actuarial Gain                                                (5,360)           (1,600)

              + Normal Costs                                                   2,879             3,055

              + Interest @ 4.9% and 5.1%, respectively                         4,200             4,379

              Subtotal Net Periodic Costs                                      1,719             5,834

              - Premium Payments                                              (2,441)           (2,247)

              Actuarial Liability at September 30                             90,337            91,059

              - Fund Balance at September 30                                 (44,118)          (42,492)

              Unfunded Obligations at September 30                     $      46,219      $     48,567

              * The 2011 medical inflation assumption was 5.5% as of the valuation date and grades down
              to an ultimate value of 4.4%. The 2010 medical inflation assumption was 7.5% and grades
              down to an ultimate value of 4.5%.
               Source: Postal Service’s 2011 Form 10-K Report, dated November 16, 2011.

Providing the Postal Service with the projected CSRS and FERS surpluses gives
needed short-term flexibility for it to address its current financial crisis. Future surplus
funds could also be refunded to the Postal Service in the year of occurrence. Pension
guidelines14 in the private sector allow certain entities to withdraw pension fund
surpluses under certain circumstances. The law15 does not specify how the federal
government, including the Postal Service, resolves a surplus in the CSRDF. We believe
allowing the Postal Service to use its current and future surplus funds will provide
significant financial relief and dramatically improve cash flow. See Appendix B for
monetary impact.


14
   Accounting Standards Codification, Section 715, Compensation – Retirement Benefits, 30 Defined Benefit Plans –
Pensions, 55 Implementation Guidance and Illustrations, 6 Net Periodic Pension Cost, September 15, 2009.
15
   U.S. Code, Title 5, Part III, Subpart G, Chapter 84, Subchapter II, §8423 (b)(1) through (5).




                                                          5
Pension and Retiree Health Care Funding Levels                                                          FT-MA-12-002



Value of Extensive Real Property Holdings

The OIG previously reported16 that the Postal Service could use its real property assets
with the consent of the U.S. Department of Treasury (Treasury) and the OPM to
address financial obligations if conditions were to dramatically deteriorate. The Postal
Service owns buildings and land with a purchase value of more than $27 billion.17 In our
prior report, we provided examples of properties’ purchase price versus assessed
values;18 however, we did not calculate the fair market value of the assets.19 In further
work, we determined that by increasing the purchase value based on the long-term
average commercial real estate rate of return of 3 percent per year,20 the current fair
market value of the real estate holdings would be an estimated $85 billion. The
$85 billion would sufficiently cover the remaining unfunded retiree health care benefit
obligation of $46 billion.

We believe the value of these extensive real property holdings provides an alternative to
the prepayment of retiree health care benefits. Recognition of these assets, which could
be applied to the obligation, if ever needed, could prevent the prefunding payments from
increasing Postal Service debt. The Postal Service should continue to consider this
value, along with other revenue-generating and cost-savings options, as it addresses its
retirement benefit obligations.

Other Related Matters

Current legislative and administration proposals to strengthen the federal government’s
pension funding and modify employees’ retirement benefits could have additional
significant impacts on the Postal Service’s funding levels. For example, proposed
legislation includes provisions to increase FERS and CSRS contributions an additional
5 percent, with the increase phased in over a 5-year period beginning in 2013.21 In
addition, recently enacted legislation22 requires employees newly hired into the
federal government starting in calendar year 2013, and with fewer than 5 years of
service, to pay 2.3 percent more of their salary into FERS. Additional proposals still
being considered include reducing FERS benefits by computing the annuity on a 5-year


16
   Leveraging Assets to Address Financial Obligations (Report Number FF-MA-11-118, dated July 12, 2011).
17
   As of April 2011, the Postal Service owned nearly 8,900 buildings and parcels of land.
18
   For example, the National Postal Museum had a purchase price of $47 million and an assessed tax value of
$304 million.
19
   The Postal Service does not maintain fair market or assessed tax value records for its properties.
20
   The 3 percent rate pertains to the total rate of return on investment performance of a very large pool of individual
commercial real estate properties acquired in the private market for investment purposes. Although the mix of Postal
Service facilities generally would not be considered investment properties, we believe the 3 percent appreciation
factor is reasonable for this calculation based on the Bureau of Labor Statistics’ 100-year Consumer Price Index
average of between 3.1 and 3.2 percent.
21
   The administration has proposed in its FY 2013 budget a 1.2 percent increase in retirement contributions phased in
over a 3-year period.
22
   Public Law 112-96.




                                                          6
Pension and Retiree Health Care Funding Levels                                                        FT-MA-12-002



salary average and allowing 0.7 percent for each year of service.23 Approval of further
legislative or administrative proposals is subject to much debate and it is unclear what
proposals will be signed into law; however, if these proposals are approved, the
Postal Service’s pension fund surplus could increase, as assets may grow with
increased contributions and the liability (future obligations) may decrease.

Recommendation

We recommend the chief financial officer and executive vice president, in coordination
with the vice president, Government Relations and Public Policy:

1. Pursue legislative action to refund the current pension surplus and any future
   pension surpluses to the Postal Service.

Management’s Comments

Although management did not agree or disagree with the monetary impact, they did
agree with the recommendation and will continue their support of pending legislation
that would address the FERS surplus. They will also evaluate all pension assets and
liabilities prior to the start of a new session of the Congress in January 2013, and will
pursue legislation as appropriate.

Management also advised that they have requested specific legislation to address both
the FERS surplus and retiree healthcare. They noted that Senate Bill 1789, the 21 st
Century Postal Service Act of 2012,24 would complete the FERS funding rules on both
deficits and surpluses and negate the need for future legislative action. Additionally, it
would extend and reduce retiree health benefit funding levels going forward. However,
the House of Representatives Bill 2309, the Postal Reform Act of 2011,25 does not
address potential future surpluses and would only adjust the timing of the retiree health
benefit prefunding. Management understands the unfunded obligation must not become
a burden to taxpayers and proposed a Postal Service healthcare plan which would
substantially reduce, if not eliminate, the unfunded retiree healthcare obligation.

Regarding the use of real property assets to address financial obligations, management
does not believe Treasury will allow cash obligations to be settled with the pledge of real
property. However, they will continue to identify real estate assets that are in excess of
needs and to obtain the best value from their lease or disposal. See Appendix C for
management’s comments, in their entirety.




23
   Current FERS benefits are generally based on a 3-year salary average with 1 percent for each year of service.
24
   Passed April 25, 2012.
25
   Not yet passed.




                                                         7
Pension and Retiree Health Care Funding Levels                               FT-MA-12-002



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
management’s corrective actions should resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                 8
Pension and Retiree Health Care Funding Levels                                  FT-MA-12-002




                             Appendix A: Additional Information

Background

The Postal Service’s financial challenges have been well-publicized in recent months.
The funding requirements for pensions and retiree health care benefits have caused a
tremendous burden on the Postal Service’s financial operations. The Postal Service has
fully funded its pension obligations for both CSRS and FERS. For retiree health care
benefits, the Postal Service is required to prefund the expense at an increasing rate
through 2016.

The OPM establishes prefunding levels for the CSRS and FERS pension programs and
the Postal Accountability and Enhancement Act of 200626 dictates prefunding
requirements for retiree health care benefits, as well as current and future requirements
to pay retiree health care premiums. The OPM uses actuarial assumptions for the future
rate of inflation, cost-of-living adjustments, annual salary increases, and a projected rate
of return on the CSRDF to establish contribution rates. Understandably, actuarial
assumptions will never equal the actual experiences, resulting in actuarial gains or
losses. Changes in the economic climate or demographics may alter the funding status.

The OIG has offered a variety of recommendations to assist the Postal Service in
controlling expenses and decreasing future losses caused by prefunding pensions and
retiree health care benefits. The Postal Service is currently working with Congress to
develop legislation to address the comprehensive issues identified in our prior reports.

Objective, Scope, and Methodology

Our objective was to explore progress on funding pension and retiree health care
benefits as of September 30, 2011. We did not rely on computer-generated data to
support the opinions and conclusions presented in this report. To achieve our objectives
we:

      Reviewed prior OIG and Government Accountability Office reports.
      Researched FY 2011 annual reports for the Postal Service and federal government.
      Evaluated benchmarked data from the public and private sectors.
      Considered proposed legislation and current news articles.

We conducted this review from January through June 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on May 17, 2012, and included their comments where appropriate. We did

26
     Public Law 109-435.




                                                 9
   Pension and Retiree Health Care Funding Levels                                                FT-MA-12-002



   not rely on any computer generated data for the conclusions in this report.

   Prior Audit Coverage

                                            Final           Monetary
                                           Report             Impact
Report Title      Report Number             Date           (In billions)              Report Results
Leveraging         FF-MA-11-118           7/12/2011           None         This report explores an opportunity
Assets to                                                                  for the Postal Service to leverage its
Address                                                                    assets to address its funding
Financial                                                                  obligations. It recommends working
Obligations                                                                with applicable parties to leverage
                                                                           Postal Service properties at fair
                                                                           market value to achieve 100 percent
                                                                           funding for its retirement benefit
                                                                           programs. Management agreed with
                                                                           the intent of the recommendation but
                                                                           did not know whether property could
                                                                           be used to achieve 100 percent
                                                                           funding of these obligations in any
                                                                           legal or actuarial sense. They agreed
                                                                           to raise the leveraging issue with
                                                                           other stakeholders.
Substantial        FT-MA-11-001          11/23/2010           $59.8        This report summarizes the results of
Savings                                                                    our review and benchmarking of the
Available by                                                               Postal Service’s prefunding of
Prefunding                                                                 pensions and retiree health care
Pensions and                                                               liabilities. It recommends
Retirees’                                                                  management pursue necessary
Health Care at                                                             changes that would permit the Postal
Benchmarked                                                                Service to prefund pension and
Levels                                                                     retiree health care funds at
                                                                           benchmarked levels of 80 and
                                                                           30 percent, respectively, of liabilities.
                                                                           Management did not agree with the
                                                                           recommendation but did state they
                                                                           would continue to work with
                                                                           Congress and the administration to
                                                                           address this matter.




                                                      10
    Pension and Retiree Health Care Funding Levels                                               FT-MA-12-002



                                             Final           Monetary
                                            Report             Impact
Report Title       Report Number             Date           (In billions)             Report Results
Summary of          FT-MA-10-002           9/30/2010            $8.7        This report summarizes the results of
Substantial                                                                 four OIG reports identifying
Overfunding                                                                 overfunding issues in employee and
in Postal                                                                   retiree benefit funds. It recommends
Service                                                                     management develop a
Pension and                                                                 comprehensive legislative strategy to
Retiree Health                                                              recover overfunded amounts and
Care Funds                                                                  review all available data related to
                                                                            pensions and retiree health benefit
                                                                            calculations to ensure that
                                                                            calculations are reasonable and
                                                                            accurate. Management neither
                                                                            agreed nor disagreed with the
                                                                            recommendations but was working
                                                                            with Congress to address the findings
                                                                            of the four reviews summarized in
                                                                            this report.
Federal             FT-MA-10-001           8/16/2010           None          This report identifies that the Postal
Employees                                                                    Service overfunded its FERS
Retirement                                                                   contributions by $5.5 billion. In
System                                                                       addition, present legislation does not
Overfunding                                                                  exist to resolve surpluses. Further, it
                                                                             recommends that the Postal
                                                                             Service’s pension responsibilities be
                                                                             clearly delineated and separated
                                                                             from those of the rest of the federal
                                                                             government. Management agreed
                                                                             with our recommendations and
                                                                             stated that legislative change would
                                                                             be pursued if FY 2010 FERS
                                                                             valuations support it.
Civil Service        CI-MA-10-001          6/18/2010           $49.8        This report discusses the $75 billion
Retirement                                                                  CSRS overfunding by the Postal
System                                                                      Service, addresses the related facts,
Overpayment                                                                 and identifies solutions. Management
by the Postal                                                               agreed with the recommendation and
Service                                                                     was pursing various options identified
                                                                            by the OIG to obtain a more equitable
                                                                            CSRS valuation and access to any
                                                                            resulting funds.
The Postal        RARC-WP-10-001           1/20/2010           None          This report discusses the inequities
Service’s                                                                    of the current system of funding of
Share of                                                                     the Postal Service’s CSRS pension
CSRS                                                                         responsibility and explains that it has
Pension                                                                      resulted in an overfunding of
Responsibility                                                               $75 billion.




                                                       11
   Pension and Retiree Health Care Funding Levels                                               FT-MA-12-002



                                            Final           Monetary
                                           Report             Impact
Report Title      Report Number             Date           (In billions)             Report Results
Estimates of     ESS-MA-09-001(R)         7/22/2009           $5.95        This report questions OPM’s
Postal Service                                                             assumption that the annual health
Liability for                                                              care cost inflation rate will average
Retiree Health                                                             7 percent annually for all future years.
Care Benefits                                                              Management concurred with the
                                                                           recommendation and stated they will
                                                                           use this information to help support
                                                                           their continuing discussions with
                                                                           OPM, the Postal Regulatory
                                                                           Commission, and Congress.




                                                      12
Pension and Retiree Health Care Funding Levels                                                   FT-MA-12-002



                                  Appendix B: Monetary Impacts

As of September 30, 2011, the Postal Service’s share of the CSRDF (including both
FERS and CSRS) had a projected surplus of $13.1 billion. On September 30, 2010,27
the OIG claimed monetary impact relating to the Postal Service’s adjusted FERS
surplus of $5.5 billion as of September 30, 2009. Since the FY 2009 surplus is included
in the FY 2011 surplus, we have reduced the monetary impact to represent the surplus
not previously claimed ($13.1 billion less $5.5 billion equals $7.6 billion).

                                                              Impact              Amount
                      Recommendation
                                                            Category
           Pursue legislative action to refund              Funds Put        $7,600,000,000
           the current pension surplus and any               to Better
           future pension surpluses to the                     Use28
           Postal Service.




27
   Summary of Substantial Overfunding in Postal Service Pension and Retiree Health Care Funds (Report Number
FT-MA-10-002, dated September 30, 2010).
28
   Funds that could be used more efficiently by implementing recommended actions.




                                                      13
Pension and Retiree Health Care Funding Levels                 FT-MA-12-002



                           Appendix C: Management’s Comments




                                                 14
Pension and Retiree Health Care Funding Levels        FT-MA-12-002




                                                 15
Pension and Retiree Health Care Funding Levels        FT-MA-12-002




                                                 16
